   Office of Inspector General
        Audit Report


   FAA’S ACQUISITION STRATEGY FOR
TERMINAL MODERNIZATION IS AT RISK FOR
COST INCREASES, SCHEDULE DELAYS, AND
      PERFORMANCE SHORTFALLS
        Federal Aviation Administration

         Report Number: AV-2013-097
          Date Issued: May 29, 2013
           U.S. Department of
                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA’s Acquisition Strategy for                  Date:    May 29, 2013
           Terminal Modernization Is at Risk for Cost
           Increases, Schedule Delays, and Performance
           Shortfalls
           Federal Aviation Administration
           Report Number AV-2013-097

  From:    Jeffrey B. Guzzetti                                  Reply to
                                                                Attn. of:   JA-10
           Assistant Inspector General
             for Aviation Audits

    To:    Federal Aviation Administrator

           The Federal Aviation Administration (FAA) operates more than 200 terminal
           radar approach control (TRACON) air traffic control facilities. In 1996, FAA
           began a plan to modernize and standardize the terminal automation systems that
           controllers rely on to manage traffic within a 50-mile radius of airports by
           implementing the Standard Terminal Automation Replacement System (STARS)
           throughout the National Airspace System (NAS). However, FAA has experienced
           significant cost growth and schedule delays with STARS and needed an interim
           solution to satisfy immediate modernization needs. From 1998 to 2003, FAA
           updated existing software and hardware for automation systems at sites yet to be
           converted to STARS. These systems were referred to as the Common Automated
           Radar Terminal System (CARTS).

           By 2004, FAA was operating two distinct systems at different TRACONs—either
           CARTS or STARS. In the same year, FAA decided to revise its terminal
           automation approach through a three-phased acquisition strategy designed to
           reduce costs by reevaluating alternatives and incorporating lessons learned from
           earlier phases. Renamed the Terminal Automation Modernization/Replacement
           (TAMR) program, this effort is now necessary both to replace aging equipment
           and achieve FAA’s goals to enhance capacity and reduce delays through the Next
           Generation Air Transportation System (NextGen).

           Since 2003, we have reported on FAA’s progress and challenges with terminal
           modernization and have noted that changing requirements significantly contribute
                                                                                                                                         2


                  to schedule delays and cost growth. 1 Given FAA’s past issues with terminal
                  modernization and the importance of FAA’s TAMR program in meeting the
                  Agency’s NextGen goals, we initiated this audit to evaluate FAA’s current
                  terminal modernization effort. Specifically, our audit focuses on the current phase
                  of TAMR—TAMR Phase 3, Segment 1—which aims to replace CARTS with an
                  updated version of STARS at 11 sites, some of which are the largest and most
                  important TRACONs in the NAS. Our audit objectives were to assess (1) risks
                  related to developing and implementing software and hardware requirements for
                  Phase 3, Segment 1 and (2) whether FAA’s final investment decision resulted in a
                  reliable cost and schedule baseline.

                  We conducted this audit in accordance with generally accepted Government
                  auditing standards. Exhibit A details our scope and methodology, and exhibit B
                  provides a list of the organizations we visited or contacted.

                  BACKGROUND
                  In the 1970s and 1980s, FAA implemented its first Automated Radar Terminal
                  systems (ARTS) at TRACONs, which displayed radar feeds to help controllers
                  control takeoffs and landings, the most critical phases of flights. FAA’s efforts to
                  modernize these systems since 1996 are illustrated in the following timeline
                  (figure 1).

                  Figure 1. Timeline of FAA’s Terminal Modernization Efforts

   STARS                CARTS                                                           TAMR
    1996               1998-2003              2004            2007             2008              2010                2011               2012




FAA awards $953M       Due to cost overruns   FAA initiates   Phase 1       Phase 2 complete:    FAA splits Phase    Seg 1 – FAA        Seg 2 – FAA
contract to Raytheon   and delays, CARTS      3-phased        complete:     STARS deployed                           decides STARS      decides to
                                                                                                 3 into 2 segments
to develop and         developed and          approach to     STARS         at 5 new sites and                       will replace       deploy STARS
                                                                                                 and decides to
deploy STARS at        deployed as interim    terminal        deployed at   CARTS upgraded       deploy STARS at     CARTS at 11        at 97 small
172 TRACONS and        solution for an        modernization   47th site     at 4 sites                               large TRACONS      sites that were
                                                                                                 remaining CARTS
towers                 estimated $239M                                                           to promote single   at cost of $438M   modernized
                                                                                                 automation                             over 10 yrs ago
                                                                                                 platform                               for $462M

                  FAA’s TAMR effort is designed to modernize air traffic control facilities to
                  handle increased traffic and will support NextGen initiatives, such as the use of a
                  satellite-based air traffic surveillance program, Automatic Dependent

                  1
                    OIG Report Number AV-2003-058, “FAA Needs To Reevaluate STARS Costs and Consider Other Alternatives,”
                  September 9, 2003; OIG Report Number AV-2005-016, “Report on Terminal Modernization: FAA Needs To Address
                  Its Small, Medium, and Large Sites Based on Cost, Time, and Capability,” November 23, 2004; OIG Report Number
                  AV-2005-061, “Status of FAA`s Major Acquisitions: Cost Growth and Schedule Delays Continue to Stall Air Traffic
                  Modernization,” May 26, 2005. OIG reports are available on our Web site at http://www.oig.dot.gov.
                                                                                                                  3


Surveillance-Broadcast (ADS-B). FAA is currently in Phase 3 of TAMR. For this
phase, FAA originally planned to replace all 108 of the remaining CARTS
systems, but in April 2010 the Agency broke up the phase into 2 segments. The
first segment focused on short-term (11 TRACONs with large traffic volumes)
planning objectives, while the second segment focused on mid-term
(97 TRACONs with small traffic volumes) planning objectives. In September
2010, FAA decided to deploy STARS as the terminal automation system to best
promote FAA’s goal for a single terminal automation platform. On December 21,
2011, FAA completed its final investment decision for Segment 1, pushing
estimated completion to 2017. On September 19, 2012, FAA completed its final
investment decision for Segment 2.

FAA’s capital investment programs, such as TAMR, generally follow the
acquisition lifecycle set forth in the Agency’s Acquisition Management System
(AMS), which establishes policy and guidance for all aspects of FAA’s acquisition
process. Programs are generally baselined at the final investment decision
milestone when the Joint Resources Council (JRC) 2 approves the cost and
schedule parameters, the specific performance requirements, and expected benefits
for a program. Prior to the final investment decision, AMS requires the program
office to manage the investment by developing a business case along with
supporting documentation (e.g., implementation strategy and planning document,
program requirements document) to support the baseline decision. FAA’s
Investment Planning and Analysis office must validate the supporting information
to ensure the business case provides a credible picture of the investment and its
impact on the NAS. The office also evaluates and assesses the cost, benefits, risks,
schedule, and economics of a particular initiative. FAA considers this effort
crucial for reducing the risks of a program’s investment decision.

RESULTS IN BRIEF
FAA faces significant risks in developing and implementing the technical
requirements for its current terminal modernization effort. Specifically, FAA has
yet to identify and finalize all the software and hardware requirements needed to
successfully replace CARTS with STARS at the 11 large TRACONs. FAA must
first modernize STARS hardware to meet the current capabilities of CARTS, but
has encountered problems such as keyboard failures that have resulted in delays.
Furthermore, while FAA anticipated the need for developing 94 software and
hardware requirements (referred to as “gaps”) that are critical for successfully
replacing CARTS with STARS, at least 5 more gaps have been identified that will
require extensive software development and testing. FAA anticipates identifying
more gaps once it begins transitioning to STARS at the highest-volume

2
  The JRC is FAA’s investment review board. It makes corporate-level resource decisions, including authorization and
funding for new investment programs.
                                                                                   4


TRACONs, which could further delay implementation. At the same time, because
full STARS capability at the 11 sites is still years away, FAA is continuing to add
new capabilities to CARTS at select facilities to support air traffic operations. The
longer FAA must maintain and update CARTS at these sites, the greater the
implementation risk because FAA will have to add the same new capabilities to
STARS to maintain functionality at the 11 sites.

FAA’s final investment decision did not result in a reliable schedule and cost
baseline for implementing STARS at the 11 large TRACONs, putting TAMR at
risk of further schedule delays and cost growth. For example, FAA’s approved
schedule to deploy STARS by 2017 lacks key deployment milestones and
completion dates and was not evaluated for risk per AMS requirements. Moreover,
in July 2012, 6 months after its final investment decision, TAMR program
officials approved a different schedule with the STARS contractor that requires
the contractor to deploy STARS systems more than a year earlier than the baseline
schedule. This timeframe ignores repeated concerns that FAA’s software
development and testing efforts would likely require additional time. As a result, it
remains unclear how and when FAA will accomplish all the tasks necessary to
implement STARS at the 11 sites. FAA’s current cost estimates are similarly
unreliable because FAA omitted major program cost elements from the cost
baseline approved during its final investment decision. For example, even though
the TAMR schedule extends through 2017, FAA’s approved cost baseline of
$438 million only covers the effort through 2015, and it remains unclear how the
additional 2 years will be funded. The Agency also excluded anticipated technical
refresh and modernization costs, estimated at $270 million, as well as longer-term,
undetermined costs to continue maintaining and upgrading CARTS longer than
originally planned. Finally, we found that the work products used to support the
TAMR business case contained inconsistent information or lacked key details,
further undermining FAA’s ability to know the true costs and timeline of TAMR
and its impact to the NAS.

We are making recommendations to FAA to address challenges and risks to its
terminal modernization efforts.

FAA FACES CONSIDERABLE RISKS IN DEVELOPING AND
IMPLEMENTING SOFTWARE AND HARDWARE REQUIREMENTS
FAA faces significant risks with its current terminal modernization effort because
it has not yet finalized the technical requirements for the complex transition from
CARTS to STARS. According to FAA, to successfully execute its acquisition
strategy and implement STARS at the 11 large sites, the Agency must develop,
test, and deploy upgrades to STARS hardware and software before it can fully
replace the current CARTS systems. In the meantime, FAA must also continue to
                                                                                     5


maintain and sustain CARTS at the 11 facilities until the STARS replacement is
accomplished. Without finalized requirements for these efforts, the Agency is at
risk of increased software development costs and implementation delays.

FAA Must Address Problems With STARS Modernization Before It
Can Meet the Existing CARTS Functionality
FAA has yet to identify and finalize all the software and hardware requirements
needed to successfully replace CARTS with STARS at the 11 TRACONs. This
lack of firm requirements is a particular concern given the complex and
simultaneous efforts needed for this transition. First, FAA must modernize STARS
hardware (i.e., computer processors, monitors, operating systems, and the dual
display architecture), which will involve extensive testing to determine whether
the hardware is fit for use.

At the same time, FAA must update STARS software to obtain the enhanced
functionality required to support the 11 large TRACONs. For example, one
enhancement would enable STARS to support more than 8 remote towers—an
important upgrade given that 6 of the 11 sites have more than 8 remote towers.
Another enhancement would reduce STARS recovery time from power failures
from 6 minutes to 60 seconds. In accordance with its NextGen plans, FAA is also
planning to deploy new ADS-B functionality at all STARS sites, which will
require further operational testing and evaluation activities.

FAA considers the greatest risks to STARS development to be software
development and acceptance. In particular, after upgrading STARS hardware and
software, FAA will then need to incorporate at least 100 new functions, referred to
as “gaps,” into STARS to mirror the capabilities that CARTS currently provides.
In modernizing and upgrading STARS for use at the 11 TRACONs, FAA initially
identified the need to develop and implement 94 gaps in order for STARS to
perform the same functionality as CARTS. These gaps equate to about 80,000
lines of software code and require extensive development and testing before they
can be accepted by FAA. However, according to an FAA analysis of past STARS
software development, it takes on average 16 months for a software build with
about 13,000 lines of code to be developed, tested, and accepted by FAA.
Consequently, FAA’s plan to deliver the 80,000 lines of software code at the first
key site by September 2014—only 33 months after the program was baselined—is
a high-risk endeavor. These risks will be further exacerbated if FAA follows
through with its contract plans to achieve operational capability at the first key site
by February 2013.

Some of the needed gaps in STARS are critical for safely managing aircraft (see
table 1). For example, automatic proximity alerts will help controllers maintain
safe separation distances between aircraft in the terminal environment. However,
                                                                                                 6


the proximity alerts will require extensive software development that will be time-
consuming to install because of their impact on STARS operational software that
supports existing capabilities.

Table 1. Key Gaps (Requirements) Needed To Upgrade STARS
Gap Item                         Operational/Technical Impact
Automatic Proximity              Added software will improve situational awareness by
Alerts                           automating a function to alert controllers of loss of separation.
Automatic Update of              Added software will allow controllers to determine proper
Altimeter Settings               altitude of aircraft.
Modernized Computer              Added hardware and software will allow continuous recording
Data Recovery                    of data without manual intervention.
Number of Remote                 Added hardware will allow the use of STARS at TRACONs
Towers                           with more than eight remote towers.
Airspace Violator Alert          Added software will allow controllers to identify potential
                                 airspace violators.
    Source: FAA.

Furthermore, FAA has not yet determined all the site-specific requirements needed
to provide STARS with the necessary capabilities and anticipates discovering
additional gaps as site surveys and deployment continue. For example, FAA
identified 5 new gaps in July 2011 after it submitted the original 94 gaps to the
contractor for cost proposal development. The five new gaps were generated
during site surveys conducted at the Segment 1 sites. While FAA officials do not
consider these gaps as having a significant impact on STARS performance, the
Agency has yet to complete site surveys that may uncover more gaps. Until FAA
determines whether new gaps exist and how they will be implemented, the Agency
will not know the extent of the cost and schedule risks that the resulting
requirements may present to successfully implementing STARS.

In addition, MITRE 3 has reported that the more traffic volume that exists at a site,
the more complex the transition to STARS will likely be, increasing the chance for
additional requirements that will take added time to complete. This is a particular
concern because 7 of the 11 Segment 1 TRACONs are the largest in traffic volume
for 2011, as shown in table 2.




3
    MITRE Corporation manages FAA’s federally funded research and development center.
                                                                                     7


Table 2. Traffic Volume for CARTS Facilities Slated for STARS in
Segment 1
   Facility                                           Traffic Volume (2011)   Rank
   Southern California TRACON                              1,985,000           1
   New York TRACON                                         1,894,000           2
   Potomac TRACON                                          1,492,000           3
   Northern California TRACON                              1,464,000           4
   Chicago TRACON                                          1,243,000           5
   Atlanta TRACON                                          1,223,000           6
   Dallas Fort-Worth TRACON                                1,120,000           7
   Denver TRACON                                            886,000            10
   Minneapolis TRACON                                       552,000            18
   St. Louis TRACON                                         319,000            26
   Louisville TRACON                                        212,000            50

 Source: FAA Operations Network.


FAA’s risks related to its still-evolving requirements are highlighted in several
unanticipated technical issues that FAA has already reported, which may impact
milestones. For example, in the midst of hardware and software modernization
activities, keyboards for STARS equipment have been failing at higher than
normal rates, and the Agency is reviewing various options if the STARS
contractor cannot identify a fix. This has resulted in delays in installing the dual
display architecture for aiding the transition from CARTS to STARS at the initial
key site. In addition, a key software build that incorporates needed STARS
enhancements has required more updates, and FAA has expanded the number of
operational test sites initially planned, resulting in more delays. FAA is actively
addressing these challenges; however, the potential exists for more unanticipated
delays associated with the program’s still-evolving requirements.

FAA Is Adding New Capabilities to CARTS, Which May Further Impact
the STARS Transition
As FAA works to upgrade STARS, the Agency is also managing CARTS systems
with differing capabilities across the NAS, further complicating terminal
modernization efforts. Because STARS implementation at the 11 sites is still years
away, FAA is continuing to add new functionality to CARTS at select facilities to
support air traffic operations. For example, FAA is currently upgrading CARTS
hardware at the New York TRACON to support ADS-B. The Agency has also
added proximity alert technology at Minneapolis and St. Louis TRACONs and is
                                                                                  8


planning to implement this technology at the other sites that will be replaced with
STARS, with the exception of Dallas-Fort Worth.

These simultaneous upgrades to CARTS pose several challenges to FAA. In a
September 2011 report, MITRE stated—and we agree—that the more operational
enhancements FAA continues to add to the CARTS system, the more difficult it
will be to gain user support for the transition from CARTS to STARS, because
CARTS will already be providing all the capabilities that controllers need. In
addition, the longer FAA is forced to maintain and update CARTS at these sites,
the greater the risk for new STARS requirements, as more software development
will likely be required to ensure STARS systems meet the functionality for the
11 sites that the CARTS systems already provide.

FAA’S FINAL INVESTMENT DECISION DID NOT RESULT IN A
RELIABLE COST AND SCHEDULE FOR IMPLEMENTING STARS
FAA held a final investment decision for the 11 sites in December 2011—after
postponing it four times since March 2010—and approved a schedule baseline
through 2017 and a cost baseline of $438 million. However, several factors limit
the reliability of this baseline. First, the approved baseline schedule lacks
completion dates such as detailed milestones for software development and
deployment activities and a complete risk assessment per AMS guidelines. In
addition, the approved schedule is in conflict with the deployment schedule
negotiated with the contractor. Second, cost elements for developing STARS
hardware and software and sustaining CARTS were omitted from FAA’s TAMR
business case. In addition, program funding approved in the cost baseline was only
budgeted through 2015, even though the schedule baseline has a 2017 completion
date. FAA also used incomplete work products that did not comply with AMS as
its basis for approving the program. Because FAA approved the TAMR program
with unreliable schedule and cost data and incomplete supporting work products,
considerable risks and uncertainty exists regarding when the Agency will complete
this effort and at what cost.

FAA’s Approved Baseline Schedule Lacks Completion Dates and
Milestones and Conflicts With the Contract Schedule, Which
Introduces High-Level Risk
FAA’s approved baseline schedule lacks detailed milestones, limiting its reliability
as an indicator of the true timeline for successfully implementing STARS at the
11 large TRACONs. Originally slated to proceed until 2015, the approved TAMR
schedule was revised on the date of the final investment decision meeting
(December 21, 2011), to extend completion time of the 11 sites initial operating
                                                                                                                   9


capability (IOC) 4 to 2016, and full operational capability to 2017. This was done
because major concerns were raised within FAA after several independent
evaluations of TAMR’s detailed working schedules highlighted major risks with
the contractor’s ability to complete IOC for all 11 sites by 2015. For example,
MITRE reported in September 2011 that FAA’s software development efforts
would likely require additional time for operational testing and acceptance. The
same report also identified that FAA officials in the TAMR program office and
FAA Technical Center anticipated significant risk regarding implementation of
new hardware elements for STARS. MITRE also recommended in December
2011 that FAA address software deployment risks by allotting more time to
specific deployment milestones in the approved baseline schedule. 5

However, the new schedule that FAA senior management both proposed and
approved at the final investment decision meeting did not undergo a risk
assessment, as required by AMS, to ensure it was feasible, and lacked completion
dates for 8 sites as well as key milestones for hardware and software development,
testing, and deployment activities at all 11 sites (see exhibit C). Establishing these
milestones is important because 129 remote air traffic control facilities are
associated with these 11 TRACONs, and STARS must be deployed to those sites
as well.

Moreover, despite the concerns raised by MITRE and other FAA officials, TAMR
program officials approved a new schedule with the STARS contractor in July
2012 that conflicts with the baseline schedule FAA senior management approved
at the December 2011 final investment decision. FAA’s actions raise major
concerns about its schedule’s reliability, particularly regarding the dates for
achieving IOC for all 11 sites. For example, FAA directed the contractor to
complete IOC a year and a half earlier for the first site than approved in the final
investment decision baseline. This re-introduces the high level of risk FAA
originally identified during its independent evaluations of TAMR’s detailed
working schedules, because it does not allow the time for software development
and testing that FAA senior managers previously allocated.

According to AMS, schedule risks result from the likelihood that program actions
may not be accomplished in the amount of time planned. However, a detailed
program schedule that identifies each milestone and the critical steps to achieving
it are necessary to identify and mitigate schedule risks. FAA officials state they
performed sufficient risk assessment activities and met the intent of AMS by
adding the 2 years to its approved schedule. However, FAA’s actions to direct the

4
  Initial Operating Capability (IOC) is the milestone where controllers begin to use the system on a limited basis to
manage traffic.
5
  MITRE Briefing: “TAMR Program Phase 3 Interview Report,” dated September 2011, and MITRE Briefing: “TAMR
Program Phase 3 Segment 1 Schedule Analysis,” dated December 2011.
                                                                                                       10


contractor to complete IOC a year and a half earlier than the approved schedule
raises concerns about whether FAA sufficiently addressed the schedule risks (see
table 3).

Table 3. FAA’s Approved Baseline Schedule Conflicts With the
Contract Schedule for Implementing the 11 Sites
                                                                     IOC                   IOC
                                                                   Baselined            Contract
      Facility
                                                                 December 2011          July 2012

       1.        Dallas Fort-Worth TRACON                        September 2014      February 2013
       2.        Northern California
                                                                       TBD            October 2013
                 TRACON
       3.        Atlanta TRACON                                        TBD           February 2014
       4.        Southern California
                                                                       TBD             June 2014
                 TRACON
       5.        Minneapolis TRACON                                October 2015       August 2014

       6.        Potomac TRACON                                        TBD            October 2014

       7.        Denver TRACON                                         TBD           February 2015

       8.        St. Louis TRACON                                      TBD              April 2015

       9.        Louisville TRACON                                     TBD             June 2015

       10.       Chicago TRACON                                        TBD             June 2015

       11.       New York TRACON                                   October 2016       October 2015

Source: FAA’s Acquisition Program Schedule Baseline for TAMR Phase 3, Segment 1, and STARS Contract Mod 79.
IOC - Initial Operating Capability is defined as site using TAMR Phase 3 hardware and software components
operationally to control air traffic over a 2-4 hour period, typically on a mid-shift.
TBD - To be determined.

FAA’s Omission of Key Cost Elements in the TAMR Business Case
Masks the True Costs To Implement STARS and Increases the Risk of
Further Cost Growth
FAA’s current cost estimates for TAMR are similarly unreliable because FAA
omitted key program cost elements from the cost baseline and business case
approved in December 2011. According to AMS, the business case analysis at the
final investment decision must present updated cost, schedule, benefit, and risk
information for an alternative generated from an initial investment analysis.
However, FAA’s business case information was never updated. Additionally, FAA
did not include an analysis to determine whether TAMR achieved the required
80-percent confidence level for success, and a cost/benefit analysis to justify the
                                                                                                                        11


expected benefits associated with this acquisition. Instead, FAA performed a cost
effectiveness analysis 6 comparing two alternatives:

     •    Replacing all 11 TAMR Phase 3, Segment 1 sites with STARS at a cost of
          $462 million (Preferred Alternative)
     •    Maintaining the Segment 1 CARTS sites and replacing the 52 STARS
          Phase 1 sites with CARTS (Base Case) at a cost of $731 million

FAA chose the Preferred Alternative since the analysis indicated it was more cost
effective and a better overall value. 7 However, this amount excludes a major
known cost factor—technical refresh and modernization costs (estimated to cost
$270 million between 2013 and 2017) to support computer hardware and software
upgrades—even though some of these are key enhancements required to address
the gap requirements. FAA stated that these were excluded because they were part
of a separate cost baseline. However, several technical refresh activities are
prerequisites to deploying STARS at the 11 Segment 1 sites.

In addition, the TAMR business case did not account for unknown, longer-term
costs, such as maintaining and upgrading CARTS longer than originally planned at
sites until they receive STARS. For example, FAA spent $16 million on CARTS
upgrades at the New York TRACON because STARS was not ready for
deployment and the TRACON needed to meet near-term ADS-B requirements.
The original CARTS contract, awarded in March 1999, was slated to expire on
September 2011. However, the CARTS contract had to be extended twice—first to
March 2012 at a cost of $2 million, and then to March 2013 at a cost of
$11 million—primarily due to delays in investment decisions for TAMR. After
this contract expires, FAA anticipates awarding a 6-year CARTS contract focusing
on equipment, software, maintenance, and engineering service; however, the costs
to sustain CARTS in the long-term remain undetermined.

FAA’s Cost Baseline Does Not Include Funds To Support the Last
2 Years of Implementation or Address Funding Shortfalls
FAA’s cost baseline to support STARS deployment through fiscal year 2015 is
$438 million. However, funds will be required to support FAA’s terminal
modernization goals beyond 2015, as the Agency plans to complete implementing
initial STARS capabilities in 2016 and full STARS capabilities in 2017 for the
11 large TRACONs. FAA has yet to determine the required additional funding
needed to support the remaining 2 years of TAMR implementation.
6
  TAMR Phase 3, Segment 1 did not perform a traditional benefits analysis and relied on a cost effectiveness study. As
stated in its business case analysis, "a cost effectiveness analysis is effective whenever it is unnecessary or impractical
to consider the dollar value of the benefits provided by the alternative under consideration.”
7
  FAA stated that it substituted a cost effectiveness analysis in alignment with Office of Management and Budget
(OMB) guidance. However, the OMB document clearly states that its guidance should not supersede agency
requirements.
                                                                                                   12


Even before FAA extended the completion date for the 11 sites out by 2 years, it
was already facing a $115 million funding shortfall. Table 4 shows FAA’s
approved baseline cost and funding plan and shortfall for the TAMR program at
the time of the final investment decision.

Table 4. Funding Shortfall To Implement the 11 Sites

TAMR Phase 3 Segment 1                                 Cost Baseline ($ in Millions)

Cost Element                       Prior    FY 11       FY 12    FY13       FY14        FY15       Total
TAMR Phase 3 Segment 1             $11.1      $49.9     $140.2   $143.1      $76.5       $17.2     $438.0
Capital Investment Plan            $38.0      $59.9     $103.3    $74.7      $32.2       $14.8     $322.9
Delta: CIP less Baseline           $26.9      $10.0    ($36.9)   ($68.4)    ($44.3)      ($2.4)   ($115.1)
Remaining Balance                  $26.9      $36.9       $0.0   ($68.4)   ($112.7)    ($115.1)

Source: TAMR JRC Final Investment Decision, December 21, 2011.

In comparison with earlier planning estimates included in its Capital Investment
Plan, FAA’s cost baseline for TAMR results in shortfalls of about $68 million in
2013, $44 million in 2014, and $2 million in 2015. However, officials from FAA’s
budget office state that they have now eliminated the shortfall by reprogramming
and readjusting funds from other capital programs. We caution that funding
program shortfalls from capital budgets that are projected to be flat in the near
future will negatively impact FAA’s long-term ability to sustain and modernize
existing systems and develop new systems.

FAA’s Supporting Documents for the Final Investment Decision Did
Not Adhere to AMS
Despite approving the TAMR plan for the 11 sites in December 2011, FAA did
not provide a credible and complete picture of its investment and its impact to the
NAS. We found that work products used to support the TAMR business case
contained inconsistent information or lacked key details, further underscoring that
FAA did not perform complete validation and verification activities before
deciding to move forward. According to FAA’s AMS policy for acquisitions, an
investment analysis plan must be well conceived, low risk, well documented, and
well understood. FAA is required to validate and verify its business case and other
supporting work products that are the basis for the recommendation to approve or
decline moving forward with a program prior to the final investment decision.
Table 5 highlights specific problems we identified with work products FAA used
to support the TAMR final investment decision.
                                                                                                       13


      Table 5. Incomplete Work Products Used for TAMR’s Final
      Investment Decision
Work Product              AMS Requirements                                 Problems Identified

Implementation     • Defines overall implementation       The ISPD included in the TAMR final investment
Strategy and         strategy and planning for the        decision did not contain a schedule with a work
Planning             investment program. Conveys          breakdown structure—and indicated that one would not
Document             the most critical, relevant, and     be available until the final schedule is approved and
(ISPD)               meaningful information about         authorized.
                     how a program will be
                     implemented and managed.
                                                          A few days prior to the final investment decision
                   • The ISPD should be finalized         meeting, FAA included a schedule in the ISPD as an
                     before it is submitted to the        addendum. However, the schedule conflicts with the
                     JRC, contain a program               schedules presented in both the acquisition program
                     schedule based on a work             baseline and the business case analysis.
                     breakdown structure, and be
                     consistent with the schedule in
                     the business case analysis.
Program            • When presented at the final          Despite AMS requirements, FAA opted not to produce
Requirements         investment decision, must            a program requirements document for the TAMR final
Document             clearly define the operational       investment decision because it initially indicated the
                     framework and requirements           program would primarily be a technical refresh effort.
                     the program must achieve.            However, the effort has since become significantly
                                                          more complex.
                                                          FAA later indicated that in lieu of a requirements
                                                          document, it would update the TAMR system-level
                                                          specification document to include any new
                                                          requirements. However, this specification document is
                                                          not an effective substitute because it is much less
                                                          specific, pertinent, and focused.
Independent        • Prior to a final investment          The IER document contained two conflicting
Evaluation           decision, FAA’s Investment           implementation schedules. Additionally the IER office
Review (IER)         Planning and Analysis office         appears to have verified the preliminary rather than the
                     validates investments by             approved baseline schedule referenced in the
                     assessing the cost, benefits,        acquisition program baseline.
                     risks, and schedule for a
                                                          The preliminary schedule, referenced in the business
                     program. The group presents
                                                          case analysis, did not include the 2 years added to the
                     its findings to FAA senior
                                                          approved baseline schedule. The extension of several
                     management in the form of an
                                                          baseline milestones in the approved schedule will likely
                     IER.
                                                          result in additional costs over the $438 million
                                                          approved.

Acquisition        • Identifies the binding               FAA did not clearly demonstrate that it performed a full
Program              agreement between FAA                analysis on the schedule identified in the document or
Baseline             management and the program           the cost to implement the program.
                     office concerning the cost,
                     schedule, and capabilities that
                     the program will provide for a
                     major acquisition.

      Source: OIG analysis and FAA Acquisition Management System
                                                                                   14


Ultimately, FAA’s work products supporting the TAMR business case lacked
clarity because the information presented was not finalized, well documented, or
validated. FAA officials indicated they were under pressure to make a decision on
TAMR so that other interdependent NextGen programs could move forward with
their schedule priorities. However, without clear analysis supporting a
justification, decision makers cannot be assured that FAA’s current
implementation strategy is necessarily the most effective option.

CONCLUSION
Successfully modernizing terminal automation is critical to ensuring safety in the
NAS, enhancing capacity, and minimizing delays along with realizing future
NextGen capabilities. FAA’s success depends on finalizing requirements,
establishing and following comprehensive and realistic schedules, and setting clear
cost targets for all aspects of the effort. Until FAA does so, its terminal automation
modernization project remains at risk of uncontrolled cost increases, unanticipated
schedule delays, and ineffective systems that do not provide the capabilities
needed for a safe and modern NAS.

RECOMMENDATIONS
To improve FAA’s effectiveness in achieving terminal modernization, we
recommend the Agency:

   1. Develop a requirements document for TAMR Phase 3 Segment 1 to ensure
      the operational and technical requirements for the 11 large TRACONs are
      specific, pertinent, and focused on requirements needed to transition
      CARTS to STARS.

   2. Develop and implement a formal process to effectively manage, budget for,
      and incorporate new requirements (gaps) as they arise in the terminal
      modernization acquisition strategy.

   3. Develop a comprehensive approved baseline schedule for TAMR Phase 3,
      Segment 1 that includes: (a) Initial Operating Capability and Operational
      Readiness dates for each of the 11 sites that STARS will replace;
      (b) timeframes for testing and validating new software and hardware
      requirements to support STARS deployment; and (c) software testing to the
      maximum extent possible to ensure products are suitable for deployment.

   4. Update, verify, and validate the accurate and complete cost, schedule, and
      benefits for TAMR Phase 3, Segment 1, as prescribed by AMS.
                                                                               15


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to FAA on March 1, 2013, and received its
response on April 23, 2013, which is included as an appendix to this report. FAA
concurred with recommendations 2, 3, and 4, and partially concurred with
recommendation 1. FAA’s proposed actions for recommendations 1, 2, and 4 meet
the intent of our recommendations and include reasonable timeframes for
implementation. Although FAA partially concurred with recommendation 1,
indicating that it would not be beneficial to create a new requirements document
for the 11 large TRACONs at this time, the Agency proposed an alternative course
of action that meets the intent of our recommendation. However, FAA’s response
to recommendation 3 does not address our concern, and we are requesting
additional information, as detailed below.

FAA acknowledged that timeframes for TAMR baseline schedule activities may
be adjusted due to unanticipated risk factors, such as local needs for site
adaptation. However, we remain concerned with the Agency’s position that it
already maintains a working schedule for the TAMR program that includes these
timeframes. As our report indicates, independent evaluations of TAMR’s working
schedule highlighted major concerns regarding the contractor’s ability to complete
initial operating capability (IOC) for all 11 sites by 2015. For example, MITRE
reported in September 2011 that FAA’s software development efforts for STARS
would likely require additional time for operational testing and acceptance. To
address this concern, FAA senior management approved a baseline schedule that
pushed the completion of IOC for all 11 sites to 2016. However, this baseline
schedule lacks details on the specific timeframes for testing and validating
requirements. Accordingly, we are requesting that the Agency update the approved
baseline schedule with the timeframes for testing and validating new software and
hardware requirements. This will provide assurance that the program’s official
baseline schedule has allotted adequate time for operational testing and
acceptance, and reduce overall confusion regarding discrepancies between FAA’s
baseline and working schedules. We consider recommendation 3 open and
unresolved pending receipt of this information.

ACTIONS REQUIRED
FAA’s planned actions for recommendations 1, 2, and 4 are responsive and we
consider these recommendations resolved but open pending completion of the
planned actions. For recommendation 3, we are requesting that the Agency
provide additional information, as detailed above. In accordance with Department
of Transportation Order 8000.1C, we request that FAA provide this information
within 30 calendar days.
                                                                             16


We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-0500 or Kevin Dorsey, Program Director, at (202) 366-1518.

                                       #

cc: FAA Deputy Administrator
    FAA Chief of Staff
    DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                             17


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit from March 2011 through March 2013 in
accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To determine whether FAA’s acquisition strategy for terminal modernization
effectively addresses technological and operational risks, we focused our review
on two key issues: (1) risks related to developing and implementing software and
hardware requirements, and (2) whether FAA’s final investment decision resulted
in a reliable cost and schedule baseline.

We analyzed key planning and funding documents for the TAMR program. We
reviewed various documents received from the FAA’s TAMR Program Office and
the FAA’s William J. Hughes Technical Center in Atlantic City, NJ. These
documents include: TAMR planning documents, investment decision documents,
status briefings, requirements documents, schedule proposals, FAA budget
documents, and NextGen planning documents. We also analyzed contractor
documentation relating to STARS and CARTS, and MITRE industry reports
associated with TAMR.

We interviewed TAMR program office officials at FAA Headquarters and the
Technical Field Operational Support group at the FAA William J. Hughes
Technical Center in Atlantic City, NJ. We also interviewed various FAA
departments including: Terminal Services-Safety and Operations Support,
Terminal Services-Logistics Management, Investment and Planning Analysis
Office, and Acquisition and Business (Acquisition Executive). We also met with
contracting officials from Raytheon Company and Lockheed Martin Corporation.
We also consulted with OIG’s Offices of Legal Counsel and Acquisition and
Procurement Audits to obtain their insight on FAA’s financing arrangement with
the contractor for TAMR activities.

We conducted site visits at TRACONs slated for STARS in TAMR Phase 3,
Segment 1: Potomac, Atlanta, Dallas, and Northern California. We also conducted
site visits at Air Traffic Control Towers (ATCT)/TRACONs slated for TAMR
Phase 3, Segment 2: Austin, TX, Waterloo, IA and Atlantic City, NJ. We also
visited an ATCT/TRACON that currently uses STARS in Philadelphia, PA.




Exhibit A. Scope and Methodology
                                                                 18


EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED
Federal Aviation Administration (FAA)
Headquarters
Terminal Automation Modernization-Replacement      Washington, DC
   Program Office
Investment & Planning Analysis (IP&A) Office       Washington, DC
Acquisition and Business Office                    Washington, DC
Terminal Services                                  Washington, DC

Sites
William J. Hughes Technical Center                 Atlantic City, NJ
Philadelphia ATCT/TRACON                            Philadelphia, PA
Atlanta TRACON                                   Peachtree City, GA
Potomac TRACON                                       Warrenton, VA
Northern California TRACON                               Mather, CA
Dallas TRACON                                   Dallas-Ft Worth, TX
Austin, TX ATCT/TRACON                                    Austin, TX
Waterloo, IA ATCT/TRACON                                Waterloo, IA
Atlantic City, NJ ATCT/TRACON                      Atlantic City, NJ

Industry
Raytheon Company                                   Washington, DC
Lockheed Martin Corporation                        Washington, DC
MITRE Corporation                                    McLean, VA




Exhibit B. Organizations Visited or Contacted
                                                                                                     19


EXHIBIT C. PROGRAM SCHEDULE FOR TAMR PHASE 3,
SEGMENT 1

                            Facility                                       IOC              ORD

     Dallas Fort-Worth TRACON                                      September 2014        May 2015

     Northern California TRACON                                           TBD                TBD

     Atlanta TRACON                                                       TBD                TBD

     Southern California TRACON                                           TBD                TBD

     Minneapolis TRACON                                              October 2015            TBD

     Potomac TRACON                                                       TBD                TBD

     Denver TRACON                                                        TBD                TBD

     St. Louis TRACON                                                     TBD                TBD

     Louisville TRACON                                                    TBD                TBD

     Chicago TRACON                                                       TBD                TBD


     New York TRACON                                                 October 2016      October 2017

Source: FAA’s Acquisition Program Schedule Baseline for TAMR Phase 3, Segment 1.
IOC - Initial Operating Capability is defined as site using TAMR Phase 3 hardware and software components
operationally to control air traffic over a 2-4 hour period, typically on a mid-shift.
ORD - Operational Readiness Date.
TBD - To be determined.




Exhibit C. Pr ogram Schedule for TAM R Phase 3, Segment 1
                                                               20


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                    Title

Kevin Dorsey                            Program Director

Arnett Sanders                          Project Manager

Constance Hardy                         Senior Analyst

Katrina Knight                          Senior Auditor

Kiesha Henson                           Auditor

Jennifer Hoffman                        Analyst

Amy Berks                               Senior Counsel

Andrea Nossaman                         Senior Writer-Editor

Audre Azuolas                           Writer-Editor




Exhibit D. Major Contributors to This Report
                                                                                        21



APPENDIX. AGENCY COMMENTS


                    Federal Aviation
                    Administration

Memorandum
Date:      April 23, 2013
To:        Jeffrey B. Guzzetti, Director, Assistant Inspector General for Aviation and
           Special Program Audits
From:      H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:   Federal Aviation Administration’s (FAA) Response to Office of Inspector
           General (OIG) Draft Report: FAA’s Acquisition Strategy for Terminal
           Modernization


Air Traffic Control modernization is providing continuous improvement using well
established processes for transitioning to new systems and methods that will enable the
National Airspace System (NAS) to handle increasing traffic density while further improving
aviation safety. Presently, the FAA is operating both Standard Terminal Automation
Replacement System (STARS) and Common Automated Radar Terminal System (CARTS)
depending on the location. This increases the complexity of operations, training, and raises
costs as compared to operating a single system. Further, completing the transition to a
unified system using STARS is necessary to achieve the long term operational benefits
envisioned under NextGen.

The FAA has already completed considerable progress with the implementation of STARS
under the first phases of the program, and is now focusing much of its effort for this program
on replacing the aging CARTS system at the 11 most complex Terminal Radar Approach
Controls (TRACONS). While the OIG report presents a reasonable summary of the risks
associated with the remaining efforts, it is important to realize that the risks discussed were
derived from technical reports performed by contractors for the FAA, such as MITRE, and
from discussions with FAA employees, and review of FAA documents. The key here is that
the risks are known, and are being managed. For the handful of issues that continue to be
identified, such as site specific “gaps,” these too are both typical and anticipated.

Finally, the OIG draft report identified a number of minor procedural issues relating to the
fulfillment of several individual elements of FAA’s Acquisition Management System
(AMS). While some schedules could have been better synchronized earlier in the process,
some analyses could have been better documented, and there are still questions relating to




Appendix. Agency Comments
                                                                                       22


out-year budget uncertainties, these issues do not modify the overall requirement for the
system or the need to proceed with implementation.

FAA has carefully reviewed the information in the report and will ensure that it
accommodates recommended actions to the fullest extent practicable and has effective
systems and processes for identifying and managing risks as it completes its efforts on
Terminal Automation Management/Replacement (TAMR). As described more fully in
response to the recommendations, FAA has recognized opportunities to improve risk
management processes, by tightening up overall and site specific requirements management,
better synchronizing scheduling activities, and incorporating other lessons learned from other
NAS modernization projects, such as En Route Automation Modernization (ERAM).

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Develop a requirements document for TAMR Phase 3 Segment 1 to
ensure the operational and technical requirements for the 11 large TRACONs are specific,
pertinent, and focused on requirements needed to transition CARTS to STARS.

FAA Response: Partially Concur. The FAA recognizes the importance of complete and up
to date requirements documentation for system acquisition.           It has reviewed the
documentation available in the combined requirements document for TAMR Phase 3
Segments 1 and 2 in arriving at its Joint Resources Council (JRC) Final Investment Decision
(FID) and has determined that there is no demonstrable benefit to be gained by creating a
separate or new document for TAMR Phase 3 Segment 1 requirements. As the system has
been implemented over time, the program maintains an overall system specification/
requirements document for STARS System and Subsystem Specification (SSS).

The agency has determined that its needs can be addressed sufficiently through the
configuration and the requirements management processes to ensure that specific and
focused requirements are iteratively incorporated into existing documentation. As part of
this requirements management process, the Agency established a process for managing site
specific requirements. As the specific site surveys and planning activities continue and are
completed at each of the 11 CARTS TRACON sites in the program baseline, potential
requirements changes are evaluated and administered through the Engineering Change
Proposal (ECP) Working Group. The ECP’s role is to ensure a consistent and measured
transition from CARTS to STARS at each site.

The FAA is currently improving upon the existing process to formalize the requirements
management process (currently under development, as described in response to
Recommendation 2 below), which will simultaneously maintain the STARS SSS through
the program baseline. The resulting requirements document, reflecting the operational and
technical requirements for the 11 large TRACONs, will be finalized by December 31, 2016
(in conjunction with the last site Initial Operating Capability (IOC) Acquisition Program
Baseline (APB) milestone). As part of Configuration Management process for the program,
the requirements document will be updated iteratively up to the last site deployment. At the
completion of deployment, the requirements document will represent the fielded ‘as-is’
system.


Appendix. Agency Comments
                                                                                           23


Recommendation 2: Develop and implement a formal process to effectively manage,
budget for, and incorporate new requirements (gaps) as they arise in the terminal
modernization acquisition strategy.

FAA Response: Concur. The FAA is addressing this process through two approaches:
   1. Within the Air Traffic Organization (ATO), Mission Support (AJV), the Program
      Management Office, and Terminal Services are developing new processes and
      standards to ensure: 1) the enterprise standards for operational requirements; 2) the
      needs of individual service units; and 3) that the implementation requirements of
      specific programs and systems are consistent and compatible. AJV is leading the
      development of a requirements management process standard for the ATO, which it
      plans to complete by the end of Fiscal Year 2013.
   2. The TAMR program is creating local process standards for formally managing
      requirements changes. Software is the responsibility of the Requirements Tiger Team
      (RTT), which validates proposed changes to the TAMR baseline and translates them
      into specific contractual requirements as a formal work plan for the contractor. The
      RTT also ensures that all contract requirements are formally introduced via ECPs to
      the STARS SSS. The ECP Working Group, working as a collaborative forum
      between the FAA and its vendor partner, is accountable for the review and disposition
      process to support the thorough and expeditious evaluation, disposition, and
      implementation of STARS hardware, firmware, and related Commercially Available
      Software ECPs. This work is planned to be completed by July 31, 2013.

Recommendation 3: Develop a comprehensive approved baseline schedule for TAMR
Phase 3, Segment 1 that includes: (a) Initial Operating Capability and Operational
Readiness dates for each of the 11 sites that STARS will replace; (b) timeframes for testing
and validating new software and hardware requirements to support STARS deployment;
and (c) software testing to the maximum extent possible to ensure products are suitable for
deployment.

FAA Response to 3 (a): Concur. The FAA uses the working schedule for the TAMR
program as the implementation mechanism for the APB. This includes IOC and Operational
Readiness Date targets for each of the 11 large TRACON sites that STARS will replace.
This approach, in keeping with the AMS best-practices and guidance, also builds upon
lessons-learned from the ERAM program and other large-scale acquisitions. The target
timeframes for these activities may adjust within the confines of the APB milestones
established at FID to account for either unplanned or unanticipated risk factors. These
include variables such as local needs for site adaptation, site readiness, the availability of site
resources, and any other NAS changes that may have emerged in the interim.

Per AMS requirements, the program will undergo an Integrated Baseline Review (IBR) in
May of 2013 and will employ the recommendations from this review to further enhance
project management processes. The IBR results and recommendation implementation results
will be provided to the OIG as part of our request to close this recommendation by
September 30, 2013.



Appendix. Agency Comments
                                                                                      24


FAA Response to 3 (b): Concur. The program’s working schedule maintains this
information, and the schedule for this work is governed through periodic Program
Management Reviews (PMR) and other forums within the TAMR program office. TAMR
schedule files that demonstrate timeframes for testing and validating new software and
hardware requirements to support STARS deployment are located on a central Knowledge
Sharing Network and maintained by the program office. Given that the program’s working
schedule maintains these data, and that the use of the working schedule to manage this
information is in alignment with AMS guidance, the FAA requests that this request be
closed.

FAA Response to 3 (c): Concur. In the area of software testing, the TAMR program is also
incorporating lessons learned from the ERAM program. The test strategy for TAMR
includes a range of structured events with entrance and exit criteria for deploying new
software to TRACONs. This includes: a) early user involvement events involving controller
system testing prior to government acceptance; b) informal risk mitigation testing involving
the program office and vendor prior to software delivery at the William J. Hughes Technical
Center test facility; and c) formal operational test and evaluation including software bug
fixes, engineering change verification, regression tests, and operational evaluation by users
prior to software delivery to the sites. The TAMR program office is in the process of
codifying this process in standard documentation, which it plans to complete by September
30, 2013.

Recommendation 4: Update, verify, and validate the accurate and complete cost,
schedule, and benefits for TAMR Phase 3, Segment 1, as prescribed by AMS.

FAA Response: Concur. The FAA is guided by the AMS for all of its acquisition programs,
including TAMR. There are two key controls that serve to verify and validate the accuracy
and completeness of the programs cost performance baseline. These controls are subsequent
to the program’s FID and implementation of the program, which is ongoing. The two key
controls include:
   1. Earned-Value Management (EVM) – TAMR is implementing a formal change
      control board for all program changes that impact either individual components of the
      TAMR program or the TAMR portfolio (across phases and segments) as a whole.
      This was implemented in February 2013, and will be documented in a Change
      Management Plan and will include the development of standard operating procedures
      to guide its execution. This Change Management Plan will be completed by
      September 30, 2013.

   2. Post Implementation Review (PIR) – the PIR is used by the FAA to validate benefits
      accrual and to answer the following questions:
           o Did the FAA get what it asked for?
           o Is the investment program providing the service customer needs?
           o Are there any lessons learned about the acquisition management process?




Appendix. Agency Comments
                                                                                 25


     This review will begin by March 31, 2014, and a report is anticipated approximately
     six months after the work begins. The high-level TAMR Phase 3 Segment 1 PIR
     strategy is as follows:
        o Stringent monitoring of the integrated program schedule and EVM provides
          the means to measure and evaluate program adherence to cost and schedule
          baselines during the solution implementation phase; and,
        o Examine actual cost, schedule, benefits/improvement, and mission outcome
          performance against stated baseline goals.




Appendix. Agency Comments
